ADNAN SYED, IN THE

 

Petitioner, SUPREME COURT
v. OF THE UNITED STATES
STATE OF MARYLAND, No. 19-227
Respondent.
CERTIFICATE OF SERVICE

I, Carrie J. Williams, a member of the Bar of this Court, hereby certify that
on the 18th day of October, 2019, three copies of the foregoing Brief in Opposition
to Petition for Writ of Certiorari was mailed first class postage prepaid to Catherine
E. Stetson, Hogan Lovells US LLP, 555 Thirteenth Street, N.W., Washington, D.C.
20004, and in accordance with U.S. Supreme Court Rule 29.3, by sending an
electronic version of the foregoing Brief in Opposition to

cate.stetson@hoganlovells.com.

Assistant Attorfey General

Office of the Attorney General
200 Saint Paul Place
Baltimore, Maryland 21202
(410) 576-7837

Counsel for Respondent

 
